     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

January 19, 2012



Report Number: A-06-11-00054

Ms. Jodi S. Ogden
Office of Sponsored Projects
The University of Texas Health
  Science Center at Houston
7000 Fannin Street
Houston, TX 77030

Dear Ms. Ogden:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled The University of Texas Health Science Center at Houston
Supported Costs Related to the National Institutes of Health Recovery Act Grant. We will
forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-06-11-00054 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Jodi S. Ogden

HHS Action Official:

Ms. Lorraine M. Trexler, Director
Division of Financial Advisory Services
Office of the Director
National Institutes of Health
6011 Executive Boulevard, Room 549-C
Rockville, MD 20892
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


THE UNIVERSITY OF TEXAS HEALTH
  SCIENCE CENTER AT HOUSTON
SUPPORTED COSTS RELATED TO THE
 NATIONAL INSTITUTES OF HEALTH
      RECOVERY ACT GRANT




                        Daniel R. Levinson
                         Inspector General

                          January 2012
                          A-06-11-00054
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                              INTRODUCTION

BACKGROUND

National Institutes of Health Scientific Research

The National Institutes of Health (NIH), a component of the U.S. Department of Health and
Human Services, is the nation’s medical research agency. NIH is made up of 27 Institutes and
Centers, each with a specific research agenda for improving health and increasing life
expectancy.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $10.4 billion to NIH for fiscal years 2009 and 2010. Of the total, $8.2
billion was for helping the economy through the support and advancement of scientific research.
Of the $8.2 billion, $7.4 billion was to be allocated proportionately to the Institutes and Centers
and Common Fund, and $800 million was to be allocated to the Office of the Director. In
addition, the Recovery Act provided $1 billion to support the Extramural Construction program
for meeting research facility needs at institutions, $500 million for NIH buildings and facilities,
$400 million for comparative effectiveness research,1and $300 million for capital equipment.

University of Texas Health Science Center at Houston

The University of Texas Health Science Center at Houston (the University) was the primary
recipient of funds for the Genome-Wide Association Studies. The University received
$1,550,402 in NIH funding for the period July 1, 2009, to June 30, 2011. The University
collaborated with four other universities and one hospital, awarding them cost-reimbursable
subawards totaling $568,274.

Federal Requirements

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and the proper
allocation of costs to all benefitting programs. In addition, grantees must establish written
procurement procedures. Grantees are also required to maintain inventory control systems and
take periodic physical inventory of grant-related equipment. In addition, pursuant to 45 CFR §
74.27, the allowability of costs incurred by organizations of higher education is determined in
accordance with the provisions of Office of Management and Budget Circular A-21, Cost
Principles for Educational Institutions.




1
  Comparative effectiveness research is designed to inform health care decisions by providing evidence of the
effectiveness, benefits, and harms of different treatment options. The evidence is generated from research studies
that compare drugs, medical devices, tests, surgeries, or ways to deliver health care.

                                                         1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Recovery Act costs the University claimed for
reimbursement were allowable, allocable, and reasonable and in accordance with applicable
Federal regulations.

Scope

We conducted a limited review of the University’s financial management system and related
policies and procedures. Therefore, we did not perform an overall assessment of the University’s
internal control structure. Rather, we reviewed only the internal controls that pertained directly
to our objective.

We performed our fieldwork at the University’s administrative offices in Houston, Texas, in July
2011.

Methodology

To accomplish our objective, we reviewed:

   •    relevant Federal laws, regulations, and guidance;

   •    the University’s application for the grant award;

   •    the University’s policies and procedures related to grants and subaward agreements;

   •    the University’s organizational chart and program under which grant activities were to be
        performed;

   •    the University’s general ledger, payroll records, and travel records;

   •    invoices and other supporting documentation for a judgmental sample of expense
        transactions from the University’s maintenance and operations account;

   •    the University’s audited financial statements for the period July 1, 2009, to June 30,
        2011; and

   •    agreements and supporting documentation for expenditures related to subawards.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                                                 2
                                  RESULTS OF REVIEW

Based on our assessment, the Recovery Act costs claimed by the University for reimbursement
were allowable, allocable, and reasonable and are in accordance with applicable Federal
regulations. Accordingly, this report has no recommendations.




                                              3
